OIG Audit Report GR-30-09-002

Audit of Salem Police Departments Equitable Sharing Program Activities, Salem, Virginia
Audit Report GR-30-09-002
July 2009
Office of the Inspector General


Executive Summary


The purpose of the Department of Justice (DOJ) asset forfeiture  program is to deter crime by depriving criminals of the profits and proceeds of  illegal activities while enhancing the cooperation between federal, state, and  local law enforcement agencies. State  and local law enforcement agencies that participate in the seizure of property  and funds may receive a portion of the proceeds, or an equitable share of the  forfeiture, to use for law enforcement purposes. The Criminal Division’s Asset Forfeiture and  Money Laundering Section oversees the DOJ asset forfeiture program. 
The Department of Justice Office of the  Inspector General conducted an audit of the Salem Police Department’s  participation in the DOJ asset forfeiture program during the agency’s fiscal  year 2008. During the audit period, the  Salem Police Department received  over $57,000 and spent over $78,000 equitable sharing funds. The audit found that the Salem Police  Department primarily spent these monies to enhance and support law enforcement  capabilities of the police department. However,  we found weaknesses with the police department’s reporting of receipts and  expenditures and reconciling asset forfeiture funds requested with those  received. We also identified $550 in  questioned costs related to expenditures we consider unallowable under program  guidelines. As a result, the audit  provided the following recommendations to the Criminal Division, which oversees  the use of equitable sharing funds by recipients. 

Ensure that the  Salem Police Department reports DOJ receipts and expenditures separately on its  annual certification form.
Ensure that the  Salem Police Department periodically reconciles the equitable sharing funds  requested and the corresponding amount received.
Remedy the $550 in questioned costs due to  unallowable picture frame purchases.




 




Return to OIG Home Page